        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Evaluation Report




        Science to Achieve Results
        (STAR) Fellowship Program
        Needs to Place Emphasis on
        Measuring Results

        Report No. 2003-P-00019


        September 30, 2003
Report Contributors:                       Manju Gupta
                                           Jee Kim




Abbreviations

DOD          Department of Defense
EPA          Environmental Protection Agency
MAI          Minority Academic Institutions
NCER         National Center for Environmental Research
NIEHS        National Institutes of Environmental Health Science
NRC          National Research Council
NSF          National Science Foundation
OIG          Office of Inspector General
OMB          Office of Management and Budget
ORD          Office of Research and Development
S&E          Science and Engineering
STAR         Science to Achieve Results
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                       September 30, 2003

MEMORANDUM

SUBJECT:            Science to Achieve Results (STAR) Fellowship Program
                    Needs to Place Emphasis on Measuring Results
                    Report No. 2003-P-00019


FROM:               Jeffrey K. Harris /s/
                    Director for Program Evaluation, Cross-Media Issues

TO:                 Paul Gilman
                    Assistant Administrator, Office of Research and Development


This is our final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This evaluation report contains
findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This evaluation report represents the opinion of the OIG, and the findings
contained in this report do not necessarily represent the final EPA position. Final determinations
on matters in this evaluation report will be made by EPA managers in accordance with
established resolution procedures.

On July 23, 2003, the OIG issued a draft report to EPA for review and comment. We received
the Agency’s response to the draft report dated September 15, 2003. The Agency generally
agreed with the findings and recommendations, with the exception of the report’s approach to the
collection of demographic data and the issue of diversity.

The Agency provided a number of comments on various aspects of our report, along with a
Corrective Action Plan describing actions already taken and a time line for additional actions it
has committed to undertake. We include EPA’s comments in Appendix D. Our detailed
evaluation of those comments is presented in Appendix E. In addition, we made appropriate
changes to the draft report in response to EPA’s technical comments that are not attached.
Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion.

We have no objection to the further release of this report to the public. Should you or your staff
have any questions, please contact me at (202) 566-0831 or Manju Gupta, Project Manager, at
(202) 566-2478.

For your convenience, this report will be available at http://www.epa.gov/oig/



Attachment
                    Executive Summary
           The Environmental Protection Agency (EPA) established the Science to Achieve
           Results (STAR) Fellowship Program to provide funds to graduate students to
           encourage them to obtain advanced degrees and pursue careers in
           environmentally related fields. The program is administered by EPA’s National
           Center for Environmental Research (NCER). To determine the overall
           effectiveness of the program, we sought to identify specific performance
           measures, performance data, and internal evaluations established by NCER to
           assess the results of the fellowship program. We attempted to analyze the
           demographic composition of the students applying and entering the program.
           Additionally, we identified similar fellowship programs at other Federal agencies
           and compared approaches to assessing program effectiveness and tracking
           applicant and recipient demographic characteristics.


Results in Brief

           Program Performance. NCER did not place emphasis on determining the
           results and achievements of its STAR Fellowship Program. NCER primarily
           focused on selecting the fellows and awarding the grants, without determining
           whether the program’s goals were being achieved. NCER did not establish
           relevant performance measures, nor collect performance data on the
           accomplishments of the STAR Fellowship Program. Consequently, the success
           of the program in having recipients pursue environmentally related fields cannot
           be measured.

           Program Demographic Data. NCER did not place emphasis on collecting and
           analyzing demographic data in administering the STAR Fellowship Program.
           NCER’s main focus has been on selecting top quality candidates. Since 1999 the
           Minority Academic Institutions (MAI) Fellowships have been part of the STAR
           Fellowship Program. There is outreach to the MAIs, and NCER considers the
           MAI fellowships to address the need to attract minority applicants and fellows.
           However, NCER has not consistently collected nor analyzed the demographic
           data of the STAR/MAI applicants nor fellows. Without adequate demographic
           data, it is not possible to determine whether the program has been successful in
           attracting and selecting a diverse pool of fellows.

           Other Fellowship Programs. Review of similar fellowship programs at three
           other Federal agencies disclosed that performance of fellowship programs can be
           measured and tracked and that diversity among applicants and recipients is
           routinely monitored.


                                           i
Recommendations

         We recommend that the EPA Office of Research and Development (ORD) direct
         NCER to expand the focus of the STAR Fellowship Program regarding
         measuring results. This should include conducting internal reviews, selecting
         meaningful performance measures, and maintaining necessary data on fellowship
         applicants and recipients. We also recommend that ORD direct NCER to collect,
         maintain, and review the demographic composition of the STAR applicant pool
         and the fellows selected, and adjust outreach efforts accordingly. Further, we
         recommend adoption of certain successful procedures used by other Federal
         agency fellowship programs.

Agency Comments and OIG Response

         In its response to our draft report, the Agency agreed to our recommendations
         related to establishing Performance Measures and the need for data collection
         and analyses, tracking the fellows after completion of the program, and some of
         the procedures used by other agencies. EPA prepared an action plan, including
         action officials and due dates for each recommendation. However, EPA did not
         agree with our comments on diversity and need for outreach to minorities outside
         of the MAI program. EPA suggested we remove the chapter on diversity and
         include the recommendation for collecting demographic data with other
         recommendations in Chapter 2. We have made some modifications to the report
         in response to EPA’s request, but did not remove Chapter 3 on diversity and the
         collection of demographic data. EPA’s comments are in Appendix D, and our
         evaluation of those comments is in Appendix E.




                                        ii
                                            Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


  Chapters
            1           Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
            2           Emphasis Needs to Be Placed on Measuring Results of Program . . . . . . . . . . . . . 5
            3           Demographic Information Not Systematically Collected . . . . . . . . . . . . . . . . . . . . . 9
            4           How Similar Federal Agency Fellowship Programs Evaluate
                           Effectiveness and Monitor Diversity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


  Appendices
            A           Input for Logic Model Depicting STAR Fellowship Program . . . . . . . . . . . . . . . . . .                                        21
            B           Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       25
            C           Additional Information on Other Fellowship Programs . . . . . . . . . . . . . . . . . . . . . .                                    27
            D           Agency Comments on OIG Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            29
            E           OIG Response to Agency Comments on Draft Report . . . . . . . . . . . . . . . . . . . . . . .                                      33
            F           Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   37




                                                                        Figures

           1-1:      Logic Model Depicting STAR Fellowship Program Design . . . . . . . . . . . . . . . . . .                                  3
           2-1:      STAR Fellowship Program – Summary of File Review . . . . . . . . . . . . . . . . . . . . .                                6
           3-1:      STAR Fellowship Applicants by Race/Ethnicity . . . . . . . . . . . . . . . . . . . . . . . . . . .                       11
           3-2:      STAR Fellowship Recipients by Race/Ethnicity . . . . . . . . . . . . . . . . . . . . . . . . . .                         11
           3-3:      STAR Fellowship Applicants by Gender . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     12
           3-4:      STAR Fellowship Recipients by Gender . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       12
           3-5:      MAI Graduate Fellowship Applicants by Race/Ethnicity . . . . . . . . . . . . . . . . . . . .                             13
           3-6:      MAI Graduate Fellowship Recipients by Race/Ethnicity . . . . . . . . . . . . . . . . . . .                               13

                                                                         Tables

           3-1:      Profile of STAR Fellowship Program Applicants/Recipients by Race/Ethnicity . . .                                         11
           3-2:      Profile of STAR Fellowship Program Applicants/Recipients by Gender . . . . . . . .                                       12
           3-3:      Profile of MAI Graduate Fellowship Applicants/Recipients by Race/Ethnicity . . . .                                       13
           4-1:      Goals for Other Agency Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                16
           4-2:      Evaluation/Tracking by Other Agency Programs . . . . . . . . . . . . . . . . . . . . . . . . . .                         17
           4-3:      Diversity Efforts for Other Agency Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    18
           C-1:      Selection Processes for Other Agency Programs . . . . . . . . . . . . . . . . . . . . . . . . .                          27
           C-2:      Project Officer Duties for Other Agency Programs . . . . . . . . . . . . . . . . . . . . . . . .                         28
                                Chapter 1
                                 Introduction
Purpose
          The objective of this evaluation was to determine whether the Science to Achieve
          Results (STAR) Fellowship Program established by the Environmental Protection
          Agency (EPA) Office of Research and Development (ORD) has been effective in
          encouraging promising students to obtain advanced degrees and pursue careers in
          environmentally related fields, and to determine the demographic profile of the
          applicants and fellows, who are selected to become the future generation of the
          environmental work force. Specifically, we sought to:

          •   Identify the specific performance measures used by ORD to evaluate the
              STAR Fellowship Program.
          •   Identify the demographic profile of the applicant pool, and compare it with the
              demographics of the fellowship recipients.
          •   Compare the STAR Fellowship Program with similar fellowship programs at
              other Federal agencies.

Background
          EPA established the STAR Research Grants Program in 1995, in response to
          specific needs identified by Congress. The STAR program, administered by
          ORD’s National Center for Environmental Research (NCER), is made up of three
          components: (1) Focused Requests for Applications; (2) Exploratory Research;
          and (3) STAR Graduate Fellowships, including the Minority Academic
          Institutions (MAI) Fellowships. This report only addresses the third component.

          STAR Fellowship Program

          The STAR Fellowship Program provides funds to graduate students in
          environmentally related fields at colleges and universities across the country.
          Fellowships are awarded to competitively selected students for Master’s and
          Doctorate programs in physical sciences, biological sciences, and engineering.
          NCER describes the objective of the STAR Fellowship Program as:
                 To encourage promising students to obtain advanced
                 degrees and pursue careers in environmentally related
                 fields. . . . This program will benefit both the public and
                 private sectors which will need a steady stream of well-
                 trained environmental specialists if our society is to meet
                 the environmental challenges of the future.


                                           1
                Approximately $10 million of the STAR Grants Program has been devoted
                annually to the STAR Fellowship Program. EPA has spent approximately
                $69 million to fund over 800 STAR and MAI Fellows at 168 United States
                colleges and universities from 1995 through 2001. NCER did not put out Request
                For Applications for STAR Fellowship awards for fiscal 2002 because funding for
                the program was not included in the EPA budget. However, funding of
                $9.75 million was restored for the fiscal 2003 budget year. There is continuing
                uncertainty about the level of funding for the fellowship program in the future.

                Minority Academic Institutions Fellowships

                ORD established the MAI Graduate/Undergraduate Student Fellowship Programs
                in response to Executive Order 12320 (September 15, 1981), “to strengthen the
                capacity of historically black colleges and universities to provide excellence in
                education.” Based on White House Initiatives, the list of participating minority
                institutions grew to include Hispanic Serving Institutions, Tribal Colleges,
                Alaskan Native Serving Institutions, and Native Hawaiian Serving Institutions.
                The MAI fellowships were administered under the National Consortium for
                Graduate Degrees (GEM program) until 1998, at which time NCER took the
                programs over as part of the STAR Fellowship Program. The goal of the MAI
                programs is to assist eligible minority academic institutions in providing
                education and training to fellows interested in pursuing environmental careers and
                to strengthen environmental research programs at these institutions. An
                applicant’s eligibility is based on attending a minority academic institution,
                without consideration being given to the applicant’s race or ethnicity.

                National Research Council Report

                The National Research Council (NRC) of the National Academies of Science in
                April 2003 completed an independent assessment, sponsored by ORD, of the
                STAR Research Grants Program.1 The NRC established a committee for the
                review made up of representatives from universities, environmental groups, the
                American Chemistry Council, and a State environmental protection agency. The
                committee was charged to assess the program and “recommend ways to enhance
                the program’s scientific merit, impact, and other benefits.” The report describes
                the STAR Fellowship Program as “a small component of the overall STAR
                program whose goals and objectives differ from those of the main research grants
                program.” In evaluating the fellowship program, the committee found, “although
                the program publishes on the NCER website information about all the students
                receiving fellowships, it does not gather systematic information to track the status
                of past and currently funded fellows to assess the impact of the STAR program on
                their careers. To gather information on the influence of the fellowship program,


        1
         The Measure of STAR Review of U.S. Environmental Protection Agency’s Science to Achieve Results
(STAR) Research Grants Program, National Research Council of the National Academies, April 2003.

                                                    2
                    the committee contacted more than 100 STAR fellows who were initially funded
                    in 1995 and 1996 and who would have completed their graduate work.” The
                    NRC reported that nearly 90% of the former fellowship recipients they contacted
                    remained in the environmental field. The committee’s report concluded, “Given
                    the nation’s continuing need for highly qualified scientists and engineers in
                    environmental research and management, the STAR fellowship should be
                    continued and funded.”

                    Logic Model Depicting Design of STAR Fellowship Program

                    Figure 1-1 represents a logic model that illustrates the general design of the STAR
                    Fellowship Program, and how it is intended to support EPA and ORD.


                    Figure 1-1: Logic Model Depicting STAR Fellowship Program Design




                      Performance Measures



                                                           Customers          Short-Term          Intermediate       Long-Term
Resources           Activities           Outputs
                                                                              Outcome             Outcome             Outcome
EPA/NCER                               Awards for          Students
                    Outreach                                                  Increased                              Improved human
                                       Environmental                                              Nation has a
 FTEs -Managers                        Studies and         Universities,      number of           steady stream of   health
                    Selection                              Colleges,          fellows with
-Project Officers                      Research                                                   well trained
                    Process                                Research           Masters and                            Improved
                                       -Large applicant                                           environmental
                    -Draft requests                        Institutions       Ph.D.                                  environmental
Peer Review                            pool of brightest                                          specialists who
                    for applications                                          degrees go into                        quality
Panels                                 students                                                   can
                     -Select peer                          EPA Program        environmental
                                       -Request for
                    review panels                          Offices            fields for                             Improved
Contractors                            applications                                                -develop sound
                    -Relevance                                                continuing                             ecosystem health
                                                                                                  science
                    reviews                                Employers          education /
Funding -                              Progress Data on
$10 million/year                       Fellows             -Federal           research / or        - solve
                    Funding and                            -Industry          jobs/careers        environmental
                    Renewal Process                        -State and local
                                       Termination                                                issues
1995                                   notices             governments        Steady stream of
                    Plan & Arrange                         -Non-              highly educated
Appropriations                                                                                    - make better
                    Conference                             government         and technically
Act                                    Fellows                                                    policy decisions
                                       Conference          organizations      trained
                    Closeout and                                              environmental
Universities
                    Tracking                                                  professionals
-facilities                            Post-completion
                    -Collect thesis/                                          available for
-faculty                               Data
                    dissertations                                             national
                    -tracking after                                           workforce
National Science                       Database on post
                    completion
Foundation                             fellowship
                                       activities                             Researchers
Grants                                                                        work on science
Administration                                                                issues related to
Division                                                                      environment




    Externalities
    Congress, OMB, Funding, other Federal agency programs, universities/academic institutions, national economic climate




                                                                   3
         The logic model places the fellowship program in the larger context of ORD and
         EPA goals, and the conceptual links between the goals of fellowship program and
         ORD’s and EPA’s goals. It shows what the program does, the resources used for
         its activities, and the customers it is designed to serve with its outputs. The model
         illustrates the links between design, implementation, and outcomes, and contrasts
         design outcomes and program manager priorities. Details on the content of the
         logic model are in Appendix A.

         The design of the STAR and MAI fellowships are similar, with minor differences.
         Therefore, we are only presenting the STAR logic model, and the differences are
         discussed in Appendix A as appropriate.

Scope and Methodology

         We began our review on September 19, 2002, and completed field work on
         April 25, 2003. We conducted our work in Washington, DC. We performed our
         review in accordance with Government Auditing Standards, issued by the
         Comptroller General of the United States.

         In order to determine the degree to which the objectives of the STAR (including
         MAI) Fellowship Program were met, and how it contributes toward ORD and
         EPA goals, we reviewed the design of the program for logic and completeness by
         preparing a logic model. We obtained information through web sites and program
         files, reviewed the NRC report, and conducted interviews with ORD staff. We
         shared a draft of the logic model and the explanatory notes (Appendix A) with
         NCER managers, and received their comments, which we have incorporated as
         necessary. We selected a random sample of fellowship files for review. The
         results of the review of files are in Chapters 2 and 3. We also reviewed the
         fellowship programs for three other Federal agencies (Department of Defense,
         National Science Foundation, and National Institutes of Environmental Health
         Sciences) for comparison and documenting their procedures (Chapter 4).

         We have reported the data on demographics as provided by NCER staff in
         Chapter 3, but did not independently test the accuracy of the data. Our analyses
         were limited because NCER has not collected data systematically on
         demographics, or on jobs/careers/activities after completion of fellowships.

         Regarding prior coverage, we reviewed prior EPA Office of Inspector General
         (OIG) Report No. 2002-P-000002, “Design for Objective 8.4 Could Be Improved
         by Reorienting Focus on Outcomes,” dated November 21, 2001.

         Additional details on our scope and methodology are in Appendix B.




                                           4
                                         Chapter 2
            Emphasis Needs to Be Placed on Measuring
                      Results of Program
                NCER did not place emphasis on determining the results and achievements of its
                STAR Fellowship Program. NCER primarily focused on selecting the fellows
                and awarding the grants, without determining whether the program’s goals were
                being achieved. Consequently, the success of the program in having recipients
                pursue careers in environmentally related fields cannot be measured and evaluated
                because NCER did not collect sufficient performance measurement data. This is
                consistent with the observation in a prior report2 that “ORD focuses primarily on
                outputs. Placing greater focus on outcomes rather than the steps taken to achieve
                outcomes could result in more valuable benefits being realized.”

Sufficient Data Not Collected

                Based on our review of a sample of 50 randomly selected files for STAR
                Fellowship Program recipients from 1995 through 1999 (10 folders for each year),
                we concluded that NCER did not collect sufficient information to determine
                whether fellows obtained an environmentally related degree or pursued an
                environmentally related career. Most program activities dealt with selecting the
                fellows and dispensing resources.

                Specifically, we found that NCER did not track the fellows after termination of
                their fellowship. This was despite the fact that fellowship terms and conditions
                require fellows to notify the EPA project officer of all employment for at least
                3 years after graduation. When fellows fail to report, EPA does not have a
                procedure in place to collect the data. In our initial meetings with NCER staff, we
                were told that NCER planned to track fellowship recipients’ career choices and
                professional activities as related to the environment for 5 years. However, when
                we searched the folders to check how much information was collected on the
                employment or professional activities of the fellows after 3 years, we did not find
                any information in the files for completed fellows on post completion activities,
                such as career/jobs.

                Information on degree completion, thesis completion, and publications could be
                used as interim or partial measures of fellowship success, and we sought to
                determine whether NCER was collecting this type of data as well. We found



        2
         Design for Objective 8.4 Could be Improved by Reorienting Focus on Outcomes, OIG Report No.
2002-P-000002, November 21, 2001.

                                                     5
              20 out of 50 files (40 percent) included information on degree completion, and
              29 out of 50 files (58 percent) included completed theses or papers published.

              Figure 2-1 provides a breakdown of the type of information collected by NCER
              included in the files. This includes progress reports for the first and second years
              (Progress Reports #1 and #2, respectively), termination notices,3 an indication of
              degree completed, whether a thesis or paper was published, post-fellowship
              information in general, and whether career information for the first 3 years after
              fellowship termination was included.


                                     Figure 2-1: STAR Fellow ship Program - Sum m ary of File Review
                                                      (% available in files 1995-1999)

                 100%

                  90%

                  80%

                  70%

                  60%

                  50%

                  40%

                  30%

                  20%

                  10%

                   0%
                         Progress       Progress    Termination    Degree     Thesis/Papers      Post        Career Info
                        Report # 1     Report # 2     Notice      Completed     Published     Fellowship   (after 3 years)
                                                                                                  Info
                                                           F ile Sear ch Element s




Lack of Evaluation System and Performance Measures

              NCER had not established a system of internal evaluations to assess the
              performance of the fellowship program. NCER management stated that no
              internal evaluations of fellowship programs had been conducted. However, they
              view the statistics on the number of people applying each year and the competitive
              acceptance rate (approximately 10 percent of applicants receive fellowships) as
              indicators of program success. As noted earlier, this does not indicate the number
              of recipients who pursue careers related to the environment, which is the ultimate
              goal of the program.



    3
        Details in Appendix A, in “Close-out and Tracking” section.

                                                                  6
          Also, NCER had not established performance measures necessary for monitoring
          and reporting the program’s accomplishments. A key aspect of results-based
          management is setting meaningful performance measures. By way of
          performance measurement, NCER only reviews the number and quality of
          applicants. However, the number and quality of those selected for awards only
          indicate what goes into the program; they do not measure the results of the
          fellowship program or the difference the program makes in creating the next
          generation of environmental specialists. To determine that information, such
          performance measures as degree completion rates, jobs and careers pursued after
          fellowship, publications, and academic appointments should be tracked and
          assessed over time.

          NCER did not collect relevant data necessary for performance measurement and
          analyses, as well as for making necessary changes for improvement. It is not
          possible to determine how well a program is working or what it is achieving
          without collecting data dealing with the stated program goals, which in this case
          were students obtaining advanced degrees and pursuing careers related to
          environmentally related fields.

NRC Study Noted Similar Issues

          A study coordinated by the NRC at the request of ORD (see Chapter 1) noted
          similar issues. The NRC report noted that the STAR Fellowship Program does
          not gather systematic information to track the status of past and currently funded
          fellows to assess the impact of the STAR program on their careers. While the
          study noted the selection process ensured selection of high quality applicants, it
          also noted NCER did not collect information on degree completion rate or on how
          many of the fellowship recipients who completed graduate work went on to work
          in environmental sciences. The NRC study recommended that EPA may want to
          collect information on publications and other products of fellowship recipients to
          document the success of the program.

Recommendations

          We recommend that the Assistant Administrator of ORD direct NCER to take the
          following actions to effectively measure for results:

          2-1.   Conduct Internal Evaluations: Periodic in-house evaluations of the
                 program need to be performed by management to determine whether
                 resources are being allocated to yield successful outcomes, and to identify
                 areas that need improvement. Regular evaluations performed in-house and
                 by external panels are important parts of a program design. Results of
                 these evaluations will provide the basis for making appropriate changes to
                 strategies, objectives, or areas of emphasis.


                                           7
        2-2.   Establish Performance Measures: NCER needs to develop performance
               measures appropriate for measuring the outcome of the fellowship
               program. The measures should be cost effective, and aligned with EPA’s
               and ORD’s environmental goals. They should provide accurate and timely
               information for providing a coherent and clear picture of what the
               resources spent are producing short- and long-term. Based on review of
               other studies of fellowship programs, some traditional measures for
               evaluating fellowship programs include:

               a. Percentage of fellowship recipients who obtained advanced degrees.

               b. Number of fellowship recipients who have completed graduate work
                  and are working in environmental fields.

               c. Number of fellowship recipients who have completed degree programs
                  with at least one peer-reviewed publication, or have attained career
                  placements in research programs or acquired tenure track positions.

               d. Professional productivity in the form of scholarly publications,
                  professional presentations, and procurement of research grants.

        2-3.   Collect Data: Data on fellows completing the program must be collected
               regularly and analyzed, in order to properly assess the effectiveness of the
               program. The availability of adequate data serves as the cornerstone for
               the above-mentioned recommendations, since the availability of data will
               allow appropriate outcome-oriented performance measures and
               evaluations to be applied to the fellowship program.

Agency Comments and OIG Response

        ORD agreed with our recommendations to conduct internal evaluations, establish
        performance measures, and collect data. However, while ORD indicated that the
        appropriate data is currently being collected, we generally did not find that to be
        the case, and ORD needs to take further action in this area. ORD’s comments are
        in Appendix D, and our evaluation of those comments is in Appendix E.




                                         8
                                          Chapter 3
                          Demographic Information
                         Not Systematically Collected
                 NCER has not placed emphasis on evaluating the demographic composition of the
                 applicant pool, and of the fellows selected, who will be trained to become the next
                 generation of environmental professionals through STAR fellowships. Even
                 though having a diverse pool of applicants and fellows is not an objective of the
                 STAR Fellowship Program, inherent in NCER’s objective of meeting the need for
                 a steady stream of well-trained environmental specialists is EPA’s commitment to
                 a diverse work force that includes participation of women, under-represented
                 minorities, and people with disabilities. NCER considers the MAI program to be
                 its response to the need to address diversity. However, the purpose behind the
                 MAI program under a White House Initiative is to assist in expanding minority
                 academic institutions’ capacity to provide quality education. The eligibility for a
                 MAI fellowship is attending an institution that has been recognized as an
                 historically minority academic institution, not the student belonging to a minority
                 group. Moreover, since NCER did not collect demographic information
                 consistently, it was not possible to provide a demographic profile of the program.
                 By the same token, it is not possible for NCER to objectively demonstrate
                 whether the STAR and MAI efforts are successful in attracting women and
                 traditionally under-represented minorities.

Need for Increasing Diversity in Science and Engineering Workforce

                  There have been many recent reports on the business need for increasing
                  diversity in the science and engineering workforce. We noted two such recent
                  studies that have emphasized the need to tap into talent from groups that are
                  under-represented in the Science and Engineering (S&E) workforce:

                  •    One study4 notes that: “The demographics of the United States are changing.
                       Women and minorities make up 60 percent of the total workforce, but they
                       are dramatically under-represented in S&E. Women comprise 46 percent of
                       the workforce but only 23 percent of the S&E labor force. African
                       Americans and other ethnic minorities constitute 24 percent of the total
                       population but only 7 percent of the S&E labor force. This means the
                       majority of Americans are under-represented in S&E.” The study also notes



        4
           Envisioning a 21st Century Science and Engineering Workforce For the United States: Tasks for
University, Industry and Government, Report to the Government-University-Industry Research Round Table,
National Academy Press, ISBN 0-309-08856-9 (2003).

                                                       9
                    the lack of adequate and reliable data that could be applied for policy
                    making purposes.

              •     A second report5 was issued from a forum organized by the National
                    Academy of Engineers Committee on Diversity in the Engineering
                    Workforce, with representatives of corporations that have been recognized
                    for their successful diversity programs. The first and foremost concern
                    expressed in the study was the need for talented workers and the difficulty of
                    finding enough qualified personnel. Other issues were the competitive
                    advantage of having a diverse workforce, and the recognition that engineers
                    from different ethnic, gender, and cultural backgrounds bring unique and
                    valuable life experiences to the workplace and encourage creative
                    approaches to problem solving and design.

              In our review of other fellowship programs, we found that increasing diversity in
              the future generation of workforce is included as one of the objectives of some
              fellowship programs. The data are collected, analyzed, and used in making
              changes in the outreach if necessary (Chapter 4).

Collecting and Monitoring Demographic Data
Important for Assessing Successful Outreach

              NCER did not consistently collect or analyze demographic data for applicants,
              nor the fellows selected, since increasing diversity in the applicants or fellows is
              not a stated objective of the STAR Fellowship Program. The main emphasis of
              the program is on selecting highly motivated and talented students interested in
              environmental fields, from different geographical regions. In response to our
              questions on diversity and demographic data, NCER managers told us they
              address the issue of diversity through the MAI fellowships. However, the
              eligibility for a MAI fellowship is based on attending a MAI institution, rather
              than the ethnicity or gender of the applicant or fellow. The goal of the MAI
              program, in place since 1981 as a result of a White House Initiative, is to
              strengthen the capacity of MAIs – institutions that have historically been attended
              predominantly by minority students – to provide excellence in education. A
              highly competitive minority candidate who is not enrolled in a recognized MAI
              does not meet the eligibility criteria for a MAI Fellowship.

              Moreover, NCER did not collect or maintain a database on the demographics of
              the STAR and MAI program applicants, nor of those receiving fellows, in 1995-
              1998. In 1999, NCER established a database that includes information on the
              gender and ethnicity of applicants and fellows. Even after that, the information
              was not complete, as shown in following charts. According to NCER managers,


     5
      Diversity in Engineering: Managing the Workforce of the Future, National Academy Press (2002).

                                                   10
                  the reason for incomplete information is because it is provided by applicants on a
                  voluntary basis. Moreover, NCER has not placed emphasis on maintaining the
                  database on diversity in the STAR Fellowship Program. As seen in the following
                  charts, there are gaps in the recipient data. The fellows are in contact with NCER
                  staff, thus the data can be collected from them to complete the database.
                  Demographic data on the number of fellowship applicants and those actually
                  receiving a fellowship is provided by race (Table 3-1 and Figures 3-1 and 3-2)
                  and by gender (Table 3-2 and Figures 3-3 and 3-4). As demonstrated by the
                  “Blank” columns in the tables, demographic information on race and gender was
                  not available for more than half of the STAR Fellowship Program recipients.
                  Therefore, the information is of limited usefulness regarding trends, or to assess
                  whether any changes need to be made to increase minority applicants. Further,
                  NCER has not collected data on the participation of applicants or fellows by
                  people with disabilities in the fellowship program. As discussed further in
                  Chapter 4, other agencies place greater emphasis on collecting and analyzing
                  demographic data.


        Table 3-1: Profile of STAR Fellowship Program Applicants/Recipients by Race/Ethnicity

RACE         White         African Am.    Hispanic         Asian       Native Am.       Blank           Total

Year*     App.    Rec.     App.   Rec.   App.   Rec.     App.   Rec.   App.   Rec.    App    Rec.   App.     Rec.

2000        546       17     33      1     27        1     28      1      9       0    653      87 1,296        107

2001        924       64     40      1     50        3     46      4      5       0    332      28 1,397        100

Total     1,470       81     73      2     77        4     74      5     14       0    985    115 2,693         207

App.:    Applicants                         * Funding to provide new fellowships was not provided in 2002.
Rec.:    Recipients




                                                         11
               Table 3-2: Profile of STAR Fellowship Program Applicants/Recipients by Gender

 GENDER                     Male                  Female                    Blank                  Total

     Year*          App.           Rec.    App.            Rec.      App.       Rec. **    App.            Rec.

     2000            583            11       698            17         15            79    1,296           107

     2001            550            33       746            41        101            26    1,397           100

     Total          1,133           44     1,444            58        116           105    2,693           207

 App.:       Applicants
 Rec.:       Recipients


 *    Funding to provide new fellowships was not provided in 2002.
**    The numbers were provided by NCER. The greater number of blanks for recipients compared to applicants
      shows the database was not updated for recipient information.




                                                           12
                  Table 3-3 provides demographics for the MAI graduate fellowship program
                  applicants and recipients, and Figures 3-5 and 3-6 provide illustrations. It should
                  be noted that an applicant’s eligibility for an MAI fellowship is based on an
                  applicant’s attending a minority academic institution rather than the applicant’s
                  race or ethnicity.


        Table 3-3: Profile of MAI Graduate Fellowship Applicants/Recipients by Race/Ethnicity

RACE         White        African Am.    Hispanic       Asian       Native Am.      Blank          Total

Year      App.   Rec.     App.   Rec.   App.   Rec.   App.   Rec.   App.   Rec.   App   Rec.    App.   Rec.

2000        3         0    28      2     15      1      1       0     5      0    11        5    63         8

2001        8         0    27      5     26      9      2       0     0      0    11        5    74        19

2002       24         9    28      2     23      2      6       1     0      0    14        6    95        20

Total      35         9    83      9     64     12      9       1     5      0    36     16     232        47

App.:    Applicants
Rec.:    Recipients




                                                      13
Recommendation

         We recommend that the Assistant Administrator of ORD direct NCER to take
         the following action regarding diversity:

        3-1.    Collect and Analyze Demographic Data. NCER needs to systematically
                collect and analyze data on relevant demographic information (race,
                gender, persons with disabilities) of applicants and incoming fellows, and
                adjust outreach efforts as needed to increase the pool of applicants of
                certain demographic subsets that may be under-represented in the
                fellowship program.

Agency Comments and OIG Response

               ORD did not agree with our comments on diversity and the need for
               additional outreach to minorities outside of those attending MAIs, and
               suggested we remove the chapter from the report and include our
               recommendation on collecting demographic data in Chapter 2. We have not
               removed the chapter, but have made some modifications to make it clearer
               that our main concern was that ORD did not have sufficient demographic
               data regarding diversity. ORD’s comments are in Appendix D, and our
               evaluation of those comments are in Appendix E.




                                        14
                               Chapter 4
  How Similar Federal Agency Fellowship Programs
    Evaluate Effectiveness and Monitor Diversity
          We compared EPA’s STAR Fellowship Program with similar fellowship
          programs at other Federal agencies, and noted some procedures at those other
          agencies on how to meet and evaluate goals that EPA might be able to apply.
          While the STAR Fellowship Program has been in existence since 1995, other
          fellowship programs have existed for much longer. To compare the design,
          execution, and assessment of comparable programs, we met and consulted with
          program coordinators of fellowship programs at three other agencies to discuss
          their programs and gathered information on procedures that could be applied to
          EPA. Those three other agencies, as well as the particular program we reviewed
          for each, were:

          •   Department of Defense (DOD):
              National Defense and Science Engineering Graduate Fellowship

          •   National Science Foundation (NSF):
              Graduate Research Fellowship

          •   National Institutes of Environmental Health Science (NIEHS),
              part of the National Institutes of Health:
              National Research Service Awards Institutional Training Grants

          To present a comprehensive picture of the other fellowship programs, we are
          presenting information on the organization/management of fellowship programs,
          diversity, and evaluation/tracking. We collected, but did not independently
          verify, the information provided by program representatives. Information on the
          selection process and project officers can be found in Appendix C.

Organization/Management of Fellowship Programs

          Goals

          In line with the goal established for EPA’s STAR Fellowship Program to
          “encourage promising students to obtain advanced degrees and pursue careers in
          environmentally related fields”, all three fellowship programs have broadly stated
          goals for their programs that aim to help increase and/or produce the next
          generation of scientists and engineers by providing selected fellows with funding
          for graduate-level studies at academic institutions across America. The goals for
          the three other programs are in Table 4-1.


                                         15
                               Table 4-1: Goals for Other Agency Programs

               DOD                                  NSF                                 NIEHS

 “Increasing the number and           “Aims to ensure the vitality of     “To support research training
 quality of our Nation’s scientists   the human resource base of          opportunities for individuals . . .
 and engineers.”                      science, mathematics and            who are training for careers in
                                      engineering in the United States    specified areas . . . pertinent to
                                      and to reinforce its diversity.”    the environmental health
                                                                          sciences.”




Evaluation and Tracking

                  All the fellowship programs have tracking systems that depend heavily on the
                  voluntary participation of fellows and academic institutions. They have
                  developed procedures to collect and analyze information to evaluate the
                  performance of their program. They make adjustments and improvements to
                  their objectives, outreach, data collection, and resource allocation based on the
                  results of their analyses.

                  DOD tracks data on diversity of applicants and fellows selected annually. NSF
                  has maintained a detailed database with demographic data of all applicants and
                  fellows from the beginning of its Graduate Research Program, established in
                  1952.6 Further, NSF participates in an annual Survey of Earned Doctorates,
                  which can be used to track completion rates and time to degree of fellows by
                  gender, ethnicity, and discipline. NSF sponsors a large-scale evaluation of its
                  fellowship program by an external entity once every 10 years to objectively
                  evaluate how effectively the program is achieving its goals. NSF redefines its
                  objectives according to the outcome of the study. As part of evaluating the
                  institutions for continued funding, NIEHS requires the academic institutions to
                  track the students for 10 years after completion of fellowship, and if this
                  requirement is violated the institution is denied continued funding. Details are in
                  Table 4-2.




        6
          National Science Foundation Graduate Research Fellowship Program Final Evaluation Report, WestEd,
September 2002.

                                                     16
                     Table 4-2: Evaluation/Tracking by Other Agency Programs

              DOD                                 NSF                              NIEHS

• The closeout package              • Has maintained a database of     • To receive continued funding,
  contains a survey that asks for     fellows since the beginning of     academic institutions are
  contact information, date of        the program in 1952                required to track students for
  completion, dissertations /                                            10 years after completion
  publication title(s), name of     • Tracks completion rates at the
  academic advisor, name of           doctorate level annually         • Tracks students that later
  doctoral institution, current                                          become National Institutes of
  employer, current position,       • Sponsors an extensive              Health grantees
  information on other Federal        evaluation of the fellowship
  research money received, and        program once every 10 years      • Piloted a web-based system
  feedback on the program             to objectively evaluate how        for tracking as a response to
                                      effectively the program is         Office of Management and
• 75 percent response rate to         achieving its goals                Budget’s paperwork reduction
  the survey                                                             requirement

• Survey compiled into a report
  every year




Diversity

                The fellowship programs reviewed in this section all use different approaches in
                their efforts to increase diversity in their respective programs. DOD does not
                incorporate diversity into the selection process, basing selection solely on
                academic merit. Nonetheless, they collect the data and report on the
                demographics of the applicants and fellows to headquarters. NSF makes efforts
                to increase the presence of under-represented minority groups in the applicant
                pool by focusing outreach and recruiting toward professional minority
                organizations and attracting best quality minority students from academic
                institutions. As part of the National Institutes of Health, NIEHS requires
                academic institutions to have a plan and a report on recruitment and retainment
                of minorities in place at the time of application. NIEHS also has a separate
                minority fellowship program. EPA’s STAR Fellowship Program does not
                incorporate diversity in the selection process, but has the MAI Programs. Details
                are in Table 4-3.




                                                   17
                       Table 4-3: Diversity Efforts for Other Agency Programs

              DOD                                 NSF                               NIEHS

• Diversity is not considered in    • Has been more active in          • There is a requirement in the
  selection process, selection is     focusing outreach efforts          grant application that
  strictly based on merit             toward professional groups         stipulates all institutions need
                                      that cater to under-               to have a written plan for
• Drafts a report documenting         represented minorities and         recruitment and retention of
  the number of minorities who        minority academic institutions     minorities (statistics
  applied and are selected; also      to increase presence of            demonstrating
  documents information on            minorities in applicant pool       implementation of the plan
  gender figures                                                         are evaluated by peer
                                    • Looking at encouraging             reviewers)
                                      minorities attending top
                                      research schools to apply        • Also has a separate program
                                      to program                         of individual fellowships for
                                                                         under-represented minority
                                                                         doctoral candidates




Recommendations

                Based on our review of other fellowship programs and a comparison against the
                STAR Fellowship Program, we recommend that the Assistant Administrator of
                ORD direct NCER to take the following actions to improve the STAR
                Fellowship Program in relation to evaluation and tracking:

                4-1. Include a Post-Fellowship Survey: In line with the practice utilized by
                     DOD, NCER could include a survey-type form to the termination package.
                     A survey that asks the fellows to provide important post-fellowship
                     information could increase the response rate of fellows considerably, as
                     opposed to allowing fellows to voluntarily submit information. The
                     termination notice currently used by NCER asks only for termination date,
                     expected date of degree completion, and “additional comments.” The
                     survey, in addition to asking for the information already on the termination
                     notice, would ask for post-fellowship contact information, information on
                     thesis and published papers, and post-fellowship employment plans and
                     information.

                4-2. Conduct Comprehensive External Studies: In addition to conducting
                     regular internal reviews of the program, as recommended in Chapter 2,
                     NCER could incorporate extensive external reviews of the program,
                     performed periodically. NSF subjects its fellowship program to a
                     comprehensive study by an external contractor every 10 years. Such reviews
                     expose the program to “outside” perspectives and recommendations that
                     may not be manifested through in-house studies. In this manner, the


                                                   18
             program can avoid being stove-piped into a certain mode of practice and will
             be made more dynamic, as it incorporates up-to-date fellowship practices.

         4-3. Track Research Grant Recipients: NCER could track the number of
              fellows who go on to apply for and receive research grants from EPA in a
              manner similar to that done by NIEHS. The process would be an in-house
              tracking mechanism that could be easy to implement.

         In relation to increasing diversity, we recommend that the Assistant
         Administrator of ORD direct NCER to:

         4-4. Increase Outreach Outside MAI. NCER could be more active in outreach
              efforts to under-represented minorities (outside of its current MAI efforts) to
              increase diversity in the applicant pool. There are several strategies used by
              NSF to increase diversity that NCER can use, including focusing outreach
              efforts toward minority-based professional organizations and toward under-
              represented minority groups at top research schools across the country.

Agency Comments and OIG Response

         ORD agreed to recommendations related to establishing performance measures
         and the need for data collection and analyses, tracking the fellows after
         completion of the program, and considering some of the procedures used by
         other agencies. ORD prepared an action plan, with action officials and due dates
         for each recommendation. However, ORD did not agree with our comments on
         diversity and need for outreach to minorities outside of MAIs, as discussed in
         Chapter 3. We have made some modifications to the report in response to
         ORD’s comments. ORD’s comments are in Appendix D, and our evaluation of
         those comments are in Appendix E.




                                         19
20
                                                                                     Appendix A

                      Input for Logic Model
               Depicting STAR Fellowship Program

The logic model presented in Chapter 1 places the STAR Fellowship Program in the larger
context of ORD and EPA goals. It shows what the program does and the resources used, and
illustrates the links between design, implementation, and outcomes. It also contrasts design
outcomes and program manager priorities. Logic models for the STAR and MAI fellowship
program are similar, which is why the logic model in Chapter 1 is only for the STAR Fellowship
Program. When there are differences between the two programs, they are both addressed in this
appendix.


Resources

Resources include the human and financial resources, and other inputs, needed to support the
program.

       STAR Fellowships. EPA has funded approximately 100 STAR fellows a year, at
       approximately $10 million per year, since 1995. The staff involved with the fellowship
       program varies from year to year, with approximately seven project officers and two
       managers. Also, support is provided by the EPA Grants Administration Division, which
       administers the awards based on NCER’s recommendations. Other resources include
       contractors; universities (facilities and faculty); panels of scientists for evaluating the
       applicants; and other Federal agencies that collaborate with NCER, such as NSF.

       MAI Fellowships. The MAI Program provides up to $34,000 per year for a maximum of
       2 years for Master’s level fellows and 3 years for Ph.D. candidates. Since 1998, the
       program has accepted 58 graduate fellows – 28 for Masters and 30 for Ph.D. programs.
       The students attended 24 MAIs, which were historically Black, Native American,
       Hispanic, and Alaskan Indian. The MAI Undergraduate Fellowship Program provides
       funds up to $17,000 per year for fellows’ junior and senior years; since 1995, the program
       has accepted 90 fellows.




                                                21
Activities

Activities indicate the specific actions and tasks needed to produce the program’s outputs. The
main activities of the fellowship program deal with outreach, selection, fellowship conferences,
close-out, and tracking.

       Outreach. NCER announces the STAR Fellowship Program request for applications on
       its web site and through posters and letters to universities, and at conferences.

       Selection Process. NCER has established a two-step selection process consisting of an
       external peer review and a relevance review. Once the applications are received there is a
       process of peer review of applications by external experts. The reviewers consider
       academic records, recommendations, and career goals of applicants. More applications
       are marked “excellent” than EPA can fund. The final decision is made by NCER staff
       according to such criteria as achieving a balance of fellowship among universities,
       disciplines, and emphasizing applications in disciplines that EPA considers particularly
       important to its science mission.

       Funding and Renewal Process. NCER project officers prepare a funding package for
       each candidate, and send it to the Grants Administration Division, with recommendations
       to make appropriate fellowship awards. The duration of the STAR fellowship is not to
       exceed 2 and 3 years for Master’s degree and Ph.D. programs, respectively. According to
       the terms of the agreement, students must furnish progress reports from their academic
       advisors at the end of each year for renewal of the fellowship the following year. Project
       officers collect annual progress reports from fellows’ institutions and recommend
       renewals to the Grants Administration Division.

       Close-out and Tracking. The fellowship program was designed to track the fellows for
       3 years after completing the fellowship. NCER is to track the fellows at the termination
       of the fellowship by collecting completed Termination Forms from fellows. According to
       the terms of the agreement, upon completion of the fellowship, the fellows must complete
       and send to the Financial Management Center the Fellowship Termination Notice
       (EPA Form 5770-9). A copy of that notice is to also be sent to NCER, along with any
       thesis, dissertations, and published works that result from the fellowship program. The
       form requires information on the type of fellowship, degree sought, date degree received
       or expected, and mailing address after termination of fellowship. In addition, the form
       also provides space for additional remarks, in which fellows or their sponsors can provide
       feedback on how NCER can improve the operation of the EPA Fellowship Program.

       Fellowship Conferences. Planning and arranging for annual conferences for the fellows
       with guest speakers, and providing opportunities for fellows to share their research.




                                               22
Outputs

Outputs are the products, including goods and services, provided to the program’s customers.
The outputs of NCER’s activities are:

       Awards For Environmental Studies and Research. NCER provides fellowship awards
       for approximately 10 percent of all applicants through its highly competitive selection
       process. NCER announces the request for application, and opportunities for fellowships
       to the students, universities, and research institutions, which results in a large number of
       applications from high quality students. Through MAI fellowships, NCER provides
       funds to strengthen the capacity of minority institutions to participate in environmental
       studies and research.

       Annual Conferences for Fellows. NCER has held six annual conferences for fellows
       since 1996. The proceedings of the annual meetings are published as a detailed report.
       The conference provides opportunities for fellows to meet with other fellows, share their
       project information through posters, and meet with representatives from EPA program
       offices. Program office representatives can look for fellows suitable for recruitment into
       EPA upon completion of the fellowship.

       Progress Data on Fellows. NCER collects progress reports to gather information on
       fellows meeting academic requirements, before continuing next year’s funding. They
       track the fellows through completion of the program, by collecting the termination forms
       and papers and thesis completed.

       Post-Completion Data. The fellowship program is designed to track the fellows after
       completion, in order to ascertain whether they entered an environmental career after
       fellowship. The fellowship terms and conditions require the fellows to agree to notify the
       EPA project officer of all employment for at least 3 years after graduation. The program
       can consolidate the information on the termination forms into a database of degree
       completion, thesis completed, jobs, careers chosen, and post-fellowship contact
       information. Such a database can be of great value to EPA program offices, researchers,
       and industry, as potential researchers and employers.


Customers

Customers are the users of the program’s outputs. The customers of the STAR Fellowship
Program include students and universities, to further education opportunities; and EPA program
offices, other Federal offices, State and local governments, industry, and non-governmental
organizations, which are potential employers of the future environmental specialists coming out
of the fellowship program.




                                                23
Outcomes

       Short-term Outcomes. These outcomes indicate changes in customers knowledge,
       skills, and aspirations, followed by changes in customer actions or behavior. The short-
       term outcome of the fellowship program is an increased number of people with graduate-
       level degrees in environmental fields, who continue in higher studies or research, or work
       in government, industry or academia.

       Intermediate Outcomes. These outcomes can be defined as environmental changes
       resulting from customer actions. Intermediate outcomes of the fellowship program would
       result from more informed policy decisions and solutions to current and future
       environmental issues, provided by a steady stream of well-trained environmental
       specialists nationwide. As part of being a national leader in environmental research,
       ORD has a role in developing the next generation of environmental specialists.

       Long-Term Outcomes. Such an outcome is to support the overall EPA mission of
       providing better human health and a healthier ecosystem. Continued use of sound
       science, better policy in government and the private sector, over a long period of time,
       will result in a cleaner environment and improved human and ecosystem health.


Externalities

Externalities are factors that impact the program but are outside its control. The program needs
to be aware of them. Although the program cannot control these factors, they can influence some
of them. Some of the externalities for the fellowship program are Congress; Office of
Management and Budget (OMB); other Federal agencies’ programs; universities and other
academic institutions; and other factors, including the national economy.


Performance Measures

A program design must include certain meaningful measures that can show the progress toward
or attainment of results. Need for performance measures has been emphasized by the
Government Performance and Results Act and OMB, to ensure accountability of Federal
programs. As noted in Chapter 2, NCER has not established clearly defined performance
measures for the fellowship program, which is why no entries for performance measures are
included in the logic model provided. NCER is in the process of developing performance
measures.




                                               24
                                                                                  Appendix B

                 Details on Scope and Methodology
To determine the degree to which the objectives of the STAR and MAI Fellowship Programs
were met, and how they contributed toward ORD’s and EPA’s goals, we did the following in
three areas.

 (1)   To identify the specific performance measures used by EPA/ORD/NCER to evaluate the
       STAR Fellowship Program, we:

       •   Reviewed the design of the fellowship program for its logic and completeness.
           We used the logic model as a tool to document the full spectrum of the fellowship
           program, documenting the resources; program activities and processes; outputs;
           customers using those outputs; and short-term, intermediate, and long-term outcomes.
           We obtained information from the web site, through interviews with NCER staff and
           managers, and by reviewing program files. We shared the logic model (Figure 1-1,
           Chapter 1) and explanatory notes (Appendix A) with the NCER managers, and have
           incorporated their comments as appropriate.

       •   To understand the processes used by NCER to implement the program, obtained
           information from discussions with NCER managers and staff, who also provided us
           with data and files on fellows. We met with four NCER project officers, the Director
           of the STAR Fellowship Program, and the Director of NCER.

       •   Reviewed a randomly selected representative sample of 50 fellowship files – 10 files
           for each year – out of a total of 587 files from 1995 through 1999. We selected seven
           markers of progress and indicators of success that cover the total program from
           beginning (Resources and Activities) to the end (Results/Outcomes) and used these
           markers for evaluation. These markers were: Progress Report #1 at the end of year
           one, Progress Report #2 at the end of year two in a 3-year fellowship, completed
           Termination Notice (EPA Form 5770-9), Degree Completed, Thesis/Papers
           Published, Post-Fellowship Information, and Career Information (after 3 years).

       •   Coordinated with the NRC staff conducting the review of STAR Research Grants,
           and attended the public sessions at the NRC, to share the information and discussions
           about the STAR Program. The discussions included presentations made by EPA
           managers, as well as presentations made by representatives from NSF, NIEHS,
           Department of Energy, and Department of Agriculture, who have environmental and
           other research grants and fellowship programs similar to EPA’s STAR Research
           Grants Program

       •   Reviewed the NRC report issued at the completion of the review of EPA’s STAR
           Grants Program and noted the main approach and recommendations provided.



                                               25
(2)   To identify the diversity of the applicant pool, and compare it with the demographics of
      the fellowship recipients, we:

      •   Requested demographic data from the NCER staff responsible for maintaining the
          demographic profile of the STAR Fellowship Program applicant pool and those who
          received a fellowship award. The information is provided by applicants voluntarily,
          resulting in many gaps in the data. We analyzed the data received. We were not able
          to perform trend analyses on participation of under-represented minority groups
          because NCER did not have data for years prior to 1998, and there were many gaps in
          the data since 1999 (Chapter 3). We note a scope limitation due to lack of data
          availability.

      •   Requested similar demographic information regarding the MAI fellowship, regarding
          race and gender, because NCER uses the MAI fellowship to address diversity. We
          reported the data received.

      •   Have presented the demographic data for both the STAR and MAI programs
          (Chapter 3), as provided by NCER. We did not independently test or verify the data
          provided by NCER.

      •   Reviewed literature on workforce analyses and on under-representation of women and
          minorities in S&E labor force, and on the business need for increasing diversity in the
          S&E labor force.

(3)   To identify and compare the STAR Fellowship Program with similar fellowship programs
      at other Federal agencies, we:

      •   Reviewed fellowship programs of agencies with established fellowship programs, and
          followed up with the project officers from DOD, NSF, and NIEHS, to obtain and
          document the procedures developed and used by these agencies and provide
          recommendations to EPA as appropriate. The DOD program reviewed is managed by
          the American Society for Engineering Education, a non-profit organization. NIEHS
          is an institute within the National Institutes of Health.

      •   Researched the literature of available evaluations of fellowship programs – some
          public and some private – and literature on the feasibility of evaluating research
          programs, as well as the appropriate criteria for such programs, as recommended by
          OMB, National Academies, and academic evaluators.




                                              26
                                                                                      Appendix C

                          Additional Information on
                         Other Fellowship Programs

Selection Process

               All of the fellowship programs reviewed have incorporated peer review panel
               systems for their selection processes, and each has unique criterions in place to
               select only the top candidates (DOD: academic scores; NSF: two-merit criteria).
               EPA’s STAR Fellowship Program uses peer reviewers in the selection process.
               EPA also uses many criterions in selecting awardees, including: geographic
               distribution across States, distribution among universities, projected
               environmental workforce needs, relevance of research proposal to EPA’s
               mission, and availability of funds. A summary of the selection process for the
               three other programs is in Table C-1.


                   Table C-1: Selection Processes for Other Agency Programs

             DOD                                 NSF                             NIEHS

• 120 professionals review and     • Utilizes two merit criteria    Selects academic institutions/
  rank applications                  (“intellectual” and “broader   programs to dispense grants to
                                     impacts” criterions)           individual students (selection
• Highly-ranked list sent to DOD                                    based on peer reviews, priority
  for selection                    • Contractors conduct initial    scores, institution’s plans for
                                     screening to check for         recruitment and retention of
• Selection based on academic        completeness and eligibility   minorities, and the quality of the
  scores                                                            institution)
                                   • Each application is read and
                                     graded by two independent
                                     experts from a panel and the
                                     top 40 percent are read over
                                     by a third expert




               Project Officer Duties

               All the programs have project officers working directly with the fellowship
               programs to track progress of fellows and administer funding during the duration
               of the individual fellowships. Compared to the fellowships reviewed, EPA’s
               STAR Fellowship Program has the most project officers involved in the
               fellowship program (six to eight). The STAR Fellowship Program pairs fellows



                                                  27
                to appropriate project officers in accordance with the officers’ background and
                expertise and the topic area of fellows’ research. Details are in Table C-2.


                    Table C-2: Project Officer Duties for Other Agency Programs

              DOD                                NSF                             NIEHS

• One project manager works        • Two project officers, one       • Number of project officers not
  with two to three assistants       deals with application review     available
                                     process and the other with
• Tracks fellows’ academic           post-award administration       • Select academic institutions
  progress during the fellowship                                       and research programs based
  by receiving transcripts from    • Heavily involved with             on peer reviews, priority
  schools and progress reports       administering funds with          scores, etc., and provide for
  from academic advisors             institutions and fellows and      extensions when needed
                                     collecting Activities Reports




                                                  28
                                                                                     Appendix D



                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460



                                                                                      OFFICE OF
                                                                              RESEARCH AND DEVELOPMENT




                                      September 15, 2003


MEMORANDUM

SUBJECT:       Response to the Office of Inspector General’s Draft Audit Report #2001.001545

FROM:          Paul Gilman /s/ Paul Gilman
               Assistant Administrator (8101R)

TO:            Jeffrey K. Harris
               Director for Program Evaluation
               Cross-Media Issues
               Office of Inspector General (2460T)

       Thank you for the opportunity to review the draft evaluation report #2001.001545. I do
not concur with the analysis or conclusions on diversity in the report. The report should be
substantially rewritten to remove any discussion on diversity and Chapter Three should be
withdrawn. (See OIG Response 1, Appendix E) I concur with the findings and
recommendations that pertain to performance measures in your assessment of the Science to
Achieve Results (STAR) Fellowship Programs that are managed by the National Center for
Environmental Research (NCER.) These are improvements we began implementing before the
program was eliminated from the agency’s budget for 2002.

Diversity

        We do not concur with the findings, recommendations, or results-in-brief in the report
related to diversity. A primary basis for our nonconcurrence is the incorrect assertion in the
report that one measure of effectiveness of the STAR Fellowship Program should be “increasing
the diversity in the next generation of the environmental work force” (see the Purpose section at
page 1, lines 5-6.) The report correctly acknowledges that increasing diversity in the applicant
pool is not a specific goal of the STAR Fellowship Program, but then illogically concludes that
the program has not achieved this outcome. Measuring the performance of the fellowship


                                               29
program in an area that it does not have as a goal is analogous to failing a student for a course he
never took.( See OIG Response 2, Appendix E)

        The obstacles to increased diversity at the graduate level begin very early in the education
process. Solving these problems will require efforts at all educational levels in this country and
cannot be solely remedied by programs which deal with the end of the educational pipeline. The
applications to the STAR program must come from the existing population of science and
engineering graduate students. Though we are limited by the current ethnic/racial distribution of
students in science and engineering programs (S&E), we actually attract a more diverse group of
fellows than the population in the S&E labor force. Data cited in the draft report illustrate this
point: “Women comprise 46 percent of the workforce but only 23 percent of the S&E labor force.
African Americans and other ethnic minorities constitute 24 percent of the total population but
only 7 percent of the S&E labor force.” The population of our fellows is more diverse, with an
average of approximately 60% women and 12% minority students in the STAR program in the
most recent year, and about 70% women and 58% minority students in the combined Minority
Academic Institutions (MAI) programs.(See OIG Response 3, Appendix E)

         We have always been committed to making this program available and accessible to
minority students. (See OIG Response 4, Appendix E) For example, we currently conduct
considerable outreach to ensure that under-represented groups are aware of all of our programs,
including the STAR and MAI fellowships. We have recruited additional minority reviewers as
part of our peer review process. We have targeted outreach efforts for both programs to the
institutions and professional organizations that serve minorities because the percentage of under-
represented groups at these organizations is much higher than in the total pool of science
graduate students.

       In 1999, we revised the MAI graduate fellowship program to mirror the process and
provisions of the STAR program. We also increased the number of fellowships awarded. These
changes were intended to increase capacity at MAIs as well as awareness of under-represented
groups. The chapter as written does not recognize the MAI programs as valid outreach efforts to
under-represented groups. We believe that the MAI programs are valid and effective outreach
programs, and they represent the most efficient use of staff time for outreach to minority groups.
(See OIG Response 5, Appendix E)

       We agree with the recommendation to collect and analyze demographic data on our
applicants and fellows and we will evaluate other federal efforts in this regard. (See OIG
Response 6, Appendix E) We recommend eliminating the diversity chapter of the report and
including the collection and analysis of demographic information among the activities you
recommend in Chapter Two under Performance Measures.(See OIG Response 7, Appendix E)

Performance Measures

        OIG found that NCER has focused its efforts on developing excellent solicitations and
selecting the best candidates to receive fellowships. The report recommends that NCER should
place additional emphasis on reporting outcomes of the program. Now that the program is

                                                 30
established and running smoothly, we agree that we should tie our performance measures more to
outcomes. We began such efforts in 2001, but halted them when the program was eliminated
from the Agency’s 2002 budget. With the program operational once more, we are again focused
on this task.

        Chapter Two makes three recommendations pertaining to performance measures:
1. Conduct Internal Evaluations: ORD completed the first such evaluation in May 2003.(See
OIG Response 8-A, Appendix E) One of the first outcomes of that internal evaluation was a
series of contacts with program offices and regions, to gain their perspective on the disciplines
that will be needed to address emerging science questions in the future. We have also redoubled
our efforts to develop an effective post-fellowship tracking system that can be managed with the
resources currently available. Another result of the internal evaluation was an analysis of the
fellowship provisions and recommendations for changes that make the program more
competitive with other federal programs.

2. Establish Performance Measures: ORD agrees with the recommendation to establish
performance measures and to ensure that we track them. We also agree with the measures that
you suggest we track, including successful completion of the degree program, relevant papers
published, and postgraduate pursuit of an environmentally related career. We had included these
measures in our previous tracking plans. (See OIG Response 8-B, Appendix E)

3. Collect Data: The report discusses data collection at two points in the program: (1) during
the fellowship, including termination, and (2) after the fellowship, including three years of
follow-up on graduation and career progress.

       A. Data Collection During the Fellowship: OIG staff studied 50 files for STAR
       recipients during the years 1995 - 1999, the first four years of the program, and reported
       that the files usually contained annual reports, but often lacked information regarding
       graduation dates, publications, and post-fellowship activities. The following information
       is currently collected from all students who are concluding their fellowships:

              a. Name of degree and date expected or conferred.
              b. Name and address of post-fellowship employer or postdoctoral advisor.
              c. Post-fellowship contact information, including address, telephone, e-mail, and
                  alternate contact person.
              d. Electronic copies of all publications, including dissertations, published,
                  submitted, or in press.
              e. A full bibliography of publications over the life of the fellowship.

       This information is compiled into a master spreadsheet. At present, fellows are followed
       for at least one year after they leave the program and NCER is investigating ways to
       follow them over the long term.(See OIG Response 8-C, Appendix E)

       B. Data Collection After the Fellowship: We agree that fellows should be followed
       closely after they complete the fellowship, to determine whether they continue in

                                               31
       environmental careers after graduation. We are investigating procedures used by other
       federal agencies in order to collect this information for the STAR fellowship recipients
       and comply with existing regulations, such as the Paperwork Reduction Act.(See OIG
       Response 8-D, Appendix E)

How Other Agencies Evaluate Effectiveness:

        We appreciate the work of your staff to locate similar fellowship funding organizations
and compare approaches. Several of the suggestions made in the draft report appear workable for
the STAR Fellowship Program. In particular, we like the idea of tracking fellows who go on to
obtain STAR grant awards. We also like NSF’s approach of conducting an extensive evaluation
of the fellowship program every ten years. Since the STAR program will reach the ten-year mark
in 2005, we have begun planning for the first such review of our program. As part of that
process, we will work with representatives from the other agencies to develop and implement
procedures that would enhance the operation of the STAR program.(See OIG Response 9,
Appendix E)

        Attachment 1 contains our consolidated, page-specific comments, which we offer for
incorporation in the final report. We have included our corrective action plan as Attachment 2 to
the draft’s recommendations. The final report should reflect those recommended actions that
ORD has already completed. If the final report removes all discussion on diversity and the
corresponding recommendation as we have requested, we believe the report can be closed out
upon issuance.

        Thank you for the opportunity to review and respond to this draft report. Should your
staff have questions or require further information, please have them contact Arnold Bloom at
202-564-6687.

Attachments (2)




                                               32
                                                                                   Appendix E

 OIG Response to Agency Comments on Draft Report
We have provided responses to the main comments provided by the Agency. The text of Agency
response is provided as Appendix D. The Agency comments are numbered and in bold italics,
followed by the OIG responses.

1. The report should be substantially rewritten to remove any discussion on diversity and
Chapter Three should be withdrawn.

   We have revised the draft report to incorporate some of the Agency’s suggestions. We
   consider the discussion of the demographic composition of the applicants and fellows a
   relevant consideration within EPA’s commitment to having a diverse workforce. The issues
   related to demographics and diversity are discussed in more detail below in Nos. 2 through 7.

Diversity ( Chapter 3)

2. A primary basis for our nonconcurrence is the incorrect assertion in the report that one
measure of effectiveness of the STAR Fellowship Program should be “increasing the diversity
in the next generation of the environmental work force” (see the Purpose section at page 1,
lines 5-6.) The report correctly acknowledges that increasing diversity in the applicant pool is
not a specific goal of the STAR Fellowship Program, but then illogically concludes that the
program has not achieved this outcome. Measuring the performance of the fellowship
program in an area that it does not have as a goal is analogous to failing a student for a
course he never took.

   We modified the language of the report to clarify our objectives for looking for demographic
   information on the STAR applicants and fellows. Our objective was to provide a
   demographic profile of the applicants and fellows, since EPA has a commitment to have a
   diverse workforce, and the goal of the STAR Fellowship Program is to develop the
   environmental work force of the future. However, despite repeated efforts, we were not able
   to obtain sufficient demographic information from program managers. No data were
   collected prior to 1999, and since 1999 data have not been collected consistently. The lack of
   data from 1995-1998 and gaps in the data even in recent years indicates that NCER did not
   place an emphasis on the collection and documentation of participant demographic
   characteristics.

   Increasing diversity in fellowship programs is considered important by all three of the other
   fellowship programs we reviewed (Chapter 4). Two of the three programs make increasing
   diversity a stated objective or criteria. All three of them collect and analyze the data, and
   adjust outreach efforts based on the results of analyses. None of them limit outreach to MAI;
   each seeks minority applicants from top-ranking universities.




                                               33
   The draft report acknowledged that increasing diversity was not a stated objective of the
   STAR Fellowship Program, and recommended collecting demographic data so that NCER
   can evaluate the demographic composition of the applicants and fellows. The conclusion was
   not that NCER failed in increasing diversity, but rather that the lack of adequate demographic
   data inhibits the program from determining whether it has been successful in attracting and
   selecting a diverse pool of applicants and making the program accessible and available to
   minority students.

3. The population of our fellows is more diverse, with an average of approximately 60%
women and 12% minority students in the STAR program in the most recent year, and about
70% women and 58% minority students in the combined Minority Academic Institutions
(MAI) programs.

   The data on which these statements are based was never shared with the OIG. In order to
   complete our analyses, we requested demographic data on applicants and recipients on
   several occasions from NCER Managers. We have presented the data we received in tables
   and figures in Chapter 3. Figure 3-3 shows combined numbers of applicants as about
   54 percent female, 42 percent male, and 4 percent unknown. Figure 3- 4 shows the data on
   recipients as about 28 percent female, 21 percent male, and 51 percent unknown.

4. We have always been committed to making this program available and accessible to
minority students.

   NCER can demonstrate this commitment clearly if it collects data and maintains a database
   on applicants and fellows. The issue we highlight in the report is the need for collecting,
   maintaining, and analyzing demographic data.

5. The chapter as written does not recognize the MAI programs as valid outreach efforts to
under-represented groups. We believe that the MAI programs are valid and effective outreach
programs, and they represent the most efficient use of staff time for outreach to minority
groups.

   The fellowships awarded to MAI in response to the White House Initiative serve a useful
   purpose of improving the quality of education at institutions that have historically provided
   education to minority groups. There is a higher number of minorities in schools recognized
   as MAI. This program has been in existence since 1981, before the STAR program was
   established. In addition to the contribution of the MAI, NCER might be able to attract
   additional high caliber minority applicants from top ranking institutions. The brightest
   minority candidates, who may not be enrolled in an MAI, are ineligible for the MAI
   Fellowships. Eligibility for a MAI Fellowship depends on the institution being recognized as
   MAI, rather than the student being from a minority background. As illustrated in Table 3-3,
   in 2002, only 5 of the 14 MAI fellows (where race/ethnicity data was recorded) were
   non-white.




                                              34
6. We agree with the recommendation to collect and analyze demographic data on our
applicants and fellows and we will evaluate other federal efforts in this regard.

   We note that ORD agreed with our main point – that it needs better demographic data.

7. We recommend eliminating the diversity chapter of the report and including the collection
and analysis of demographic information among the activities you recommend in Chapter
Two under Performance Measures.

   We concluded that a discussion of the need to collect and analyze participant demographic
   data in Chapter 2 under Performance Measures could lead to the perception that increasing
   diversity was an explicit performance goal on the STAR Fellowship Program. We chose not
   to alter the draft report format but to modify the text in Chapter 3 to address concerns.

Performance Measures (Chapter 2)

8-A. Chapter Two makes three recommendations pertaining to performance measures:
 1. Conduct Internal Evaluations: ORD completed the first such evaluation in May 2003.

   This information was not shared with us prior to the response to draft report, even at our
   June 2003 exit meeting with NCER managers.

8-B. 2. Establish Performance Measures: ORD agrees with the recommendation to
establish performance measures and to ensure that we track them. We also agree with the
measures that you suggest we track, including successful completion of the degree program,
relevant papers published, and postgraduate pursuit of an environmentally related career. We
had included these measures in our previous tracking plans.

   The Agency agrees with the recommendation. The Corrective Action plan has designated an
   Action Official and a due date of January 2004. The previous tracking plans were not
   discussed at any of the meetings during our field work.

8-C. Data Collection During the Fellowship.
      . . . The following information is currently collected from all students who are
      concluding their fellowships:

       a. Name of degree and date expected or conferred.
       b. Name and address of post-fellowship employer or postdoctoral advisor.
       c. Post-fellowship contact information, including address, telephone, e-mail, and
          alternate contact person.
       d. Electronic copies of all publications, including dissertations, published, submitted,
          or in press.
       e. A full bibliography of publications over the life of the fellowship.




                                               35
This information is compiled into a master spreadsheet. At present, fellows are followed for at
least one year after they leave the program and NCER is investigating ways to follow them
over the long term.

   During our field work, NCER provided five spreadsheets – one for 1995-1998 and one each
   for 1999, 2000, 2001, and 2002 (MAI only). The spreadsheet for 1995-1998 had very little
   useful information on items a, b, c, d, or e. The spreadsheets from 1999, 2000, 2001, and
   2002 had information on item a. (name of degree and date expected or conferred), but there
   was no information on b, c, d, or e. NCER did not share with us any spreadsheets that
   collected name and address of post fellowship employers or post doctoral advisors. The
   Termination Letter also asks for some followup information, but we did not see any
   spreadsheet completed from the information based on that information.

8-D. Data Collection After the Fellowship: We agree that fellows should be followed closely
after they complete the fellowship, to determine whether they continue in environmental
careers after graduation. We are investigating procedures used by other federal agencies in
order to collect this information for the STAR fellowship recipients and comply with existing
regulations, such as the Paperwork Reduction Act.

   The Agency agrees with the recommendation to collect data during, and track the careers of,
   the fellows after completion of fellowship. The goal of the program is to encourage students
   to obtain advanced degrees, and pursue careers in environmentally related fields. In order to
   measure the outcomes of the program, it is essential to track the fellows through degree
   completions, and track the careers followed upon completion.

How Other Agencies Evaluate Effectiveness (Chapter 4)

9. We appreciate the work of your staff to locate similar fellowship funding organizations and
compare approaches. Several of the suggestions made in the draft report appear workable for
the STAR Fellowship Program.

   The Agency agrees with some of the approaches used by other agencies for tracking the
   fellows after completing the fellowship program. The information gathered by NCER at the
   time of completion in the tracking form should also be organized in a database that can be
   used for analyses and program evaluation. At the time of field work, the information was
   stored in individual folders of the fellows, but there was no database that could provide the
   information provided in the Termination Forms.




                                               36
                                                                               Appendix F

                                    Distribution

Assistant Administrator, Office of Research and Development (8101R)
Comptroller (2731A)
Agency Followup Official (2710A)
Agency Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Research and Development (8102)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Communications, Education, and Media Relations (1101A)
Acting Director, National Center for Environmental Research, ORD (8701)
Acting Deputy Director, National Center for Environmental Research, ORD (8101R)
Director, Environmental Sciences Research Division, National Center for Environmental
  Research, ORD (8723R)
Inspector General (2410)




                                             37
